                TIRNO-00-D-00012, TIRNO-95-D-00063, and
             TIRNO-95-D-00064, Supplemental Report on Audit
                  of Incurred Costs for Fiscal Year 2001

                                February 2004

                     Reference Number: 2004-1C-047




  This report has cleared the Treasury Inspector General For Tax Administration
disclosure review process and information determined to be restricted from public
                  release has been redacted from this document.
                                      DEPARTMENT OF THE TREASURY
                                         WASHINGTON, D.C. 20220



INSPECTOR GENERAL
      for TAX
  ADMINISTRATION



                                           February 10, 2004


       MEMORANDUM FOR DAVID A. GRANT
                      DIRECTOR OF PROCUREMENT
                      INTERNAL REVENUE SERVICE




       FROM:                  Daniel R. Devlin
                              Assistant Inspector General for Audit (Headquarters Operations
                              and Exempt Organizations Programs)

       SUBJECT:               TIRNO-00-D-00012, TIRNO-95-D00063, and
                              TIRNO-95-D-00064, Supplemental Report on Audit of Incurred
                              Costs for Fiscal Year 2001 (Audit #20041C0216)


       The Defense Contract Audit Agency (DCAA) examined the contractor’s August 5, 2002,
       certified final indirect cost rate proposal and related books and records for the
       reimbursement of Fiscal Year 2001 incurred costs. The purpose of the examination
       was to determine the allowability and allocability of direct and indirect costs and to
       establish audit-determined indirect cost rates for January 1, 2001, through
       December 31, 2002. The proposed rates apply primarily to flexibly priced contracts.
       The DCAA stated that this supplemental report replaces its original report in its entirety
       and incorporates the results of the review of the contractor’s additional supporting data
       that was missing during the initial examination. This report specifically addresses the
       unsupported/questioned costs reported previously.
       The DCAA indicated that the contractor’s indirect rates are acceptable as proposed.
       Additionally, claimed direct costs are acceptable and provisionally approved pending
       final acceptance. The DCAA qualified its audit report because the results of the assist
       audits for the subcontractor costs have not been received.
       The information in this report should not be used for purposes other than those intended
       without prior consultation with the Treasury Inspector General for Tax Administration
       regarding their applicability.
                                          2




If you have any questions, please contact me at (202) 622-8500 or John R. Wright,
Director, at (202) 927-7077.


Attachment
                                NOTICE:
The Office of Inspector General for Tax Administration has no objection to the
release of this report, at the discretion of the contracting officer, to duly
authorized representatives of the contractor.

The contractor information contained in this report is proprietary information. The
restrictions of 18 U.S.C. § 1905 must be followed in releasing any information to
the public.

This report may not be released without the approval of this office, except to an
agency requesting the report for use in negotiating or administering a contract
with the contractor.

                  The TIGTA seal was removed due to its size.
